<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                       WEDNESDAY, APRIL 21, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:08 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Cochran, Shelby, Burns, Inouye, 
Dorgan, and Feinstein.

                         DEPARTMENT OF DEFENSE

                         Missile Defense Agency

STATEMENT OF LIEUTENANT GENERAL RONALD T. KADISH, U.S. 
            AIR FORCE, DIRECTOR, MISSILE DEFENSE AGENCY

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Good morning, General Kadish. We're 
pleased to have you here. Pardon me for being a few minutes 
late.
    This is your 5th year before us, General, and we think 
you've done a tremendous job in helping to secure a reliable 
missile defense system for our Nation. You've provided the 
leadership and vision to achieve that goal and we're grateful 
and thankful for your service. And I'm pleased that I've been 
able to travel with you and to understand your plans. We know 
this is your last appearance before the subcommittee and we do 
wish you the very best in whatever your endeavors may be. But 
just keep in mind, my friend, my first father-in-law said that 
the English language is the only language in which retire means 
other than go to bed.
    On December 16, 2002, President Bush stated the Department 
of Defense (DOD) shall proceed with plans to deploy a set of 
Initial Missile Defense capabilities beginning in 2004. By the 
end of this year the United States will in fact have Initial 
Ballistic Missile Defense capabilities and we're proud that you 
chose Alaska to have a role in that development. Having such a 
system will hopefully mean that we'll never have to use it in 
the future. So we look forward to hearing about what you've 
done to date and to giving us an update on the overall Missile 
Defense program that you have fashioned and led so well.
    Before I open, let me turn to my colleague, my co-chairman 
for his remarks.

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. I thank you very much. I wish to associate 
myself with the remarks of the Chairman and to say to General 
Kadish I thank you very much for your tireless dedication to 
your country, to the Missile Defense program, and DOD. I wish 
to congratulate you and best wishes on your future endeavors. 
Thank you, sir.
    May I have the rest of the statement made part of the 
record?
    Senator Stevens. Without objection, so ordered.
    [The statement follows:]

             Prepared Statement of Senator Daniel K. Inouye

    Today I am pleased to join our chairman in welcoming to the 
committee Lieutenant General Ronald T. Kadish, Director of the 
Missile Defense Agency.
    General, I understand that this will be your last time 
testifying before us. You have held this position for nearly 
five years--much longer than most agency Director tours. You 
have certainly demonstrated your tremendous dedication and 
stamina, and I thank you for your tireless dedication to the 
missile defense program, to the Department of Defense, and to 
our country--congratulations and best wishes on your upcoming 
retirement.
    Through your five years of service, General, you understand 
better than anyone that missile defense is a program of great 
interest to many, and one with plenty of controversy.
    This September the Department plans to deploy a limited 
national missile defense system. This is an exciting 
achievement following decades of work in the field. Some of 
your critics, however, argue that the system is not yet ready, 
and more operational testing needs to be done to ensure that 
this limited system actually works. I look forward to hearing 
your response to these critics during our discussions today.
    Missile defense is, by its very nature, a complex program. 
Despite successes in recent tests--and for that I commend you--
there are still many technological hurdles to overcome, and 
much work remains to be done.
    This year's budget request continues the growth we have 
seen in recent years for the missile defense programs. Over $10 
billion is in the President's budget for missile defense 
activities, an increase of $1 billion over last year's 
appropriation. Sustaining this magnitude of increases in the 
out-years will be challenging.
    Despite these challenges, the missile defense program is 
one of the most critical national security issues of today and 
for the foreseeable future. The ballistic missile threat to the 
United States, to our troops deployed overseas, and to our 
allies and friends around the world will continue to 
proliferate.
    This committee understands the importance of a strong 
missile defense to our national security, and we will do our 
best to continue to support your efforts. Nevertheless, given 
the risks and rising costs of this program we will remain ever 
vigilant in our oversight.
    General, I look forward to our discussions today on the 
fiscal year 2005 budget request and the priorities and 
challenges of the missile defense program.

    Senator Stevens. Senator Shelby.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Mr. Chairman, I just want to echo what you 
and Senator Inouye have said about General Kadish. He served 
with great distinction and he served in this post for 5 years. 
That's extraordinary, General, and we wish you the best and we 
all hope to see you before you actually retire.
    Senator Stevens. Senator Cochran.
    Senator Cochran. Senator Burns was here before I was.
    Senator Stevens. He's a stealth Senator. Senator Burns.

                   STATEMENT OF SENATOR CONRAD BURNS

    Senator Burns. The day I become a stealth, that will become 
a great day. Thank you, Mr. Chairman. I just want to offer my 
statement for the record today, and I also want to associate my 
words with the chairman. General Kadish, we have traveled 
together and 5 years is a long time, especially in the work 
that you were doing and you've done it well. I don't know what 
you're going to do in retirement and you know what? I don't 
care. But we hope it's, you know, the last, General Fogelman 
retired, you know, why, he thought he went from chief, you 
know, he's got one of the great businesses there is in 
Southwestern Colorado. And he's really enjoying it very much; 
Ron's Johns. So retirement means many things to many people. 
But I will tell you we see him every now and again and we want 
to continue to see you around here every now and again too, 
because we rely on your advice and your good sense about this 
very important issue. So feel free to drop by any time and if 
you're going to retire, why, just have a great retirement.
    [The statement follows:]

               Prepared Statement of Senator Conrad Burns

    General Kadish, it appears you have come to brief this 
Committee on the Missile Defense Agency budget for the last 
time. Thank you for your service to our great Nation. You have 
been critical to the continuing success of the Missile Defense 
Agency. I wish you luck in your future endeavors.
    I read daily of our forces in the field using American 
ingenuity to develop unconventional solutions to solve problems 
they face. I appreciate your efforts to pursue innovation in 
technology, acquisition processes, and deployment strategy, to 
meet the challenges of the evolving ballistic missile threat.
    As we move into the phase of what you are calling ``Initial 
Defensive Operations'', to provide an initial capability to 
defeat an incoming ballistic missile threat, I look forward to 
the growth of this capability to allow us to defeat 
increasingly complex, and numerous missile threats launched 
against our homeland, our fleet, and our deployed forces 
overseas.
    The technical challenges you face are formidable, but the 
stakes are high for our Nation. We must counter the threat of 
ballistic missile proliferation. I hope you are right in 
stating that the deployment of the layered missile defense 
program could persuade rogue states to forego their plans to 
develop ballistic missiles, but I reserve a sense of skepticism 
of this possibility.
    We centralized missile defense system development with the 
formation of your agency in DOD to synergize the service 
solutions, which, at the time, competed for defense dollars 
within and between the services. I look forward to the layered 
system that leverages this centralization to develop open 
architectures, common interfaces, and standardized subsystems, 
minimize the system operational costs, and increase competition 
among the Industry providers of these systems.
    While I support the flexibility provided by the new 
acquisition approach, this flexibility brings with it greater 
exposure to risks. The budgetary classification of the 
resources within the Missile Defense Agency, which are 
primarily advanced technology development, do not require the 
customary depth of oversight, which comes from Defense 
Acquisition Boards making recommendations to transition between 
budget resource types. I caution you to be judicious with the 
resources we provide your agency.
    You are developing international partnerships with some of 
our allies, such as the United Kingdom, Australia, and Japan. I 
support this effort to share the development burden and benefit 
with our key allies in the war on terror. They have remained 
part of our coalition in these difficult times, and our shared 
values will keep our alliance strong.
    Again, I thank you for being here today and look forward to 
the discussion this morning. Thank you.

    Senator Stevens. Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you. General Kadish, 
congratulations to you on your successful tenure as Director of 
the Missile Defense Agency (MDA). And your skill has been quite 
obvious in how you have helped mobilize the resources of our 
Defense Department and our Government to carry out the 
provisions of the National Missile Defense Act that the 
Congress passed, and was signed by the President several years 
ago. We think you've done a magnificent job and we appreciate 
very much your hard work over this long period of years.
    Thank you, Mr. Chairman.
    Senator Stevens. Thank you, Senator.
    General, we've all been around the military long enough to 
know you made a real sacrifice in sticking to this job. You 
could have moved on and had four stars but you have finished 
this job and we congratulate you and we admire you and we're 
thankful that you did it. Thank you, sir.

            STATEMENT OF LIEUTENANT GENERAL RONALD T. KADISH

    General Kadish. Thank you, Mr. Chairman, Senator Inouye, 
members of the committee. I would like to express my 
appreciation for the help of this committee in making the 5 
years that I served as the Director of the Missile Defense 
Agency as productive and pleasant as they have been. My 
association with this committee has been one of the highlights 
of my tenure in the Missile Defense Agency, and I'd just like 
to point out for Senator Burns' benefit that I look at it as 
leaving active duty, not retiring. But it is a change.
    We have made tremendous progress in the Missile Defense 
Technology Program over the last 5 years and certainly over the 
last year. And if I might, Mr. Chairman, I'd like to just have 
a very brief statement this morning and I'd like for my full 
statement to be entered into the record, if you so choose.
    Our direction from the President and the Congress is to 
develop the capability to defend the United States, our allies 
and friends and deployed forces against all ranges of missiles 
in all phases of flight. And I'm pleased to report today that 
we're on track to do that just this year.
    Beginning in 2001, we proposed building over time, a single 
integrated ballistic missile defense system of layered 
defenses, and we structured the program to deal with the 
enormity and the complexity of that task. Our budget request 
allows us to continue our aggressive research and development 
effort to design, build and test elements of the system in an 
evolutionary way, and it provides for modest fielding over the 
next several years.
    With an evolutionary capability based acquisition approach 
and our aggressive research, development, test and evaluation 
(RDT&E) program we can put capability into the field, we can 
test it, we can train with it, we can get comfortable with it, 
we can learn what works well and what does not and improve it 
as soon as we can. That is, in a nutshell, what our program 
does.
    We are working routinely with Admiral Ellis from STRATCOM 
and the war-fighting community. Once the system is placed on 
alert we'll continue to conduct tests to gain even greater 
confidence in the operational capability that we have. We are 
working very closely with Mr. Christie and the operational test 
community. The thousands of tests we have conducted in the air, 
on the ground and in the laboratory with our modeling and 
simulations help identify problems so we can fix them and 
highlight any problems so we can address them directly.
    The RDT&E program is working. We are focused on the 
development of the most promising near-term elements, namely 
the ground-based midcourse and Aegis ballistic missile defense 
(BMD). But the Terminal High Altitude Area Defense, or THAAD, 
is progressing very well and will add capabilities to engage in 
the late midcourse and terminal layers very soon.
    In this budget we increased the investment and development 
of the boost phase layer, which we believe can offer a high 
payoff improvement to the system. Two program elements, the 
Directed Energy Laser Program and the Kinetic Energy 
Interceptor Program for hit-to-kill capability, represent 
parallel paths and complement each other.
    Mr. Chairman, Senator Inouye, thanks to the tens of 
thousands of talented and dedicated people across this country, 
America's missile defense program is on track. The Missile 
Defense Agency is doing what we told the Congress we would do, 
and your support, in particular this committee's support, has 
been critical to the progress we've made.

                           PREPARED STATEMENT

    Thank you, Mr. Chairman, and I'm ready to answer any 
questions you might have.
    [The statement follows:]
       Prepared Statement of Lieutenant General Ronald T. Kadish
    Good morning, Mr. Chairman, Members of the Committee. It is an 
honor to be here today to present the Department of Defense's fiscal 
year 2005 Missile Defense Program and budget.
    Today, I would like to outline what we are doing in the program, 
why we are doing it, and how we are progressing. I also will address 
why we proposed taking the next steps in our evolutionary development 
and fielding program. Then I want to emphasize the importance of the 
acquisition strategy we are using and close with some observations 
about testing and the Department's approach to Missile Defense Agency 
(MDA) management.
    Our National Intelligence Estimates continue to warn that in coming 
years we will face ballistic missile threats from a variety of actors. 
The recent events surrounding Libya's admission concerning its 
ballistic missile and weapons of mass destruction programs remind us 
that we are vulnerable. Ballistic missiles armed with any type warhead 
would give our adversaries the capability to threaten or inflict 
catastrophic damage.
    Our direction from the President is to develop the capability to 
defend the United States, our allies and friends, and deployed forces 
against all ranges of missiles in all phases of flight. This budget 
continues to implement that guidance in two ways.
    First it continues an aggressive Research, Development, Test and 
Evaluation (RDT&E) effort to design, build and test the elements of a 
single Ballistic Missile Defense (BMD) system in an evolutionary way. 
Second, it provides for modest fielding of this capability over the 
next several years.
    We recognize the priority our nation and this President ascribe to 
missile defense, and our program is structured to deal with the 
enormity and complexity of the task. The missile defense investments of 
four Administrations and ten Congresses are paying off. We are 
capitalizing on our steady progress since the days of the Strategic 
Defense Initiative and will present to our Combatant Commanders by the 
end of 2004 an initial missile defense capability to defeat near-term 
threats of greatest concern.
                    ballistic missile defense system
    Layered defenses help reduce the chances that any hostile missile 
will get through to its target. They give us better protection by 
enabling engagements in all phases of a missile's flight and make it 
possible to have a high degree of confidence in the performance of the 
missile defense system. The reliability, synergy, and effectiveness of 
the BMD system can be improved by fielding overlapping, complementary 
capabilities. In other words, the ability to hit a missile in boost, 
midcourse, or terminal phase of flight enhances system performance 
against an operationally challenging threat. See Chart 1.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                 Chart 1.--BMD System Engagement Phases

    All of these layered defense elements must be integrated. And there 
must be a battle management, command and control system that can engage 
or reengage targets as appropriate. And it all must work within a 
window of a few minutes. We believe that a layered missile defense not 
only increases the chances that the hostile missile and its payload 
will be destroyed, but it also can be very effective against 
countermeasures and must give pause to potential adversaries.
    So, beginning in 2001 we proposed development of a joint, 
integrated BMD system. Yet such unprecedented complexity is not handled 
well by our conventional acquisition processes. At that time, the 
Services had responsibility for independently developing ground-based, 
sea-based, and airborne missile defenses. The Department's approach was 
element- or Service-centric, and we executed multiple Major Defense 
Acquisition Programs (MDAPs).
    Today, as a result of defense transformation and a streamlined 
process instituted by the Secretary of Defense in 2001 to enhance 
overall integration, we are managing the BMD system as a single MDAP 
instead of a loose collection of Service-specific autonomous systems. 
We have come to understand over the years, though, that no one 
technology, defense basing mode, or architecture can provide the BMD 
protection we need. Redundancy is a virtue, and so we established a 
system-centric approach involving multiple elements designed, 
developed, and built with full integration foremost in our minds. When 
we made this change, we instituted a ``capability-based'' acquisition 
process instead of a ``threat-based'' process. Let me explain why this 
is important.
    Most defense programs are developed with a specific threat--or 
threats--in mind. Twenty years ago, the ballistic missile threat was 
pretty much limited to Soviet intercontinental ballistic missiles 
(ICBMs) and sea-launched ballistic missiles. But today we have to 
consider a wide range of missile threats posed by a long list of 
potential adversaries. And those threats are constantly changing and 
unpredictable. Our potential adversaries vary widely in their military 
capabilities and rates of economic and technological development. Many 
of them have a tradition of political instability.
    Weapon systems developed using a threat-based system are guided and 
governed by Operational Requirements Documents (ORDs). These documents 
establish hard thresholds and objectives for the development and 
deployment of every component. ORDs may be entirely appropriate for 
most development programs because they build linearly on existing 
systems. For example, aircraft program managers understand lift and 
thrust from previous programs going all the way back to the Wright 
brothers.
    Not so for missile defense. Most missile defense development takes 
place in uncharted waters. Any ORD developed for an integrated, layered 
missile defense system would be largely guesswork. ORDs rely on very 
precise definitions of the threat and can remain in effect for years, 
making this process all the more debilitating for the unprecedented 
engineering work we are doing. The reality that we may have to 
introduce groundbreaking technologies on a rapid schedule and also deal 
with threats that are unpredictable render the threat-based acquisition 
structure obsolete.
    A capability-based approach relies on continuing and comprehensive 
assessments of the threat, available technology, and what can be built 
to do an acceptable job, and does not accommodate a hard requirement 
that may not be appropriate.
    Perhaps the most telling difference between the two acquisition 
approaches is that our capabilities to perform are updated every four 
to eight months to reflect and accommodate the pace of our progress. We 
are no longer compelled to pursue a one hundred percent solution for 
every possible attack scenario before we can provide any defense at 
all. We are now able to develop and field a system that provides some 
capability that we do not have today with the knowledge that we will 
continue to improve that system over time. We call this evolutionary, 
capability-based development and acquisition.
              initial defensive capability--the beginning
    On December 16, 2002, President Bush directed that we begin 
fielding a missile defense system in 2004 and 2005. The President's 
direction recognizes that the first systems we field will have a 
limited operational capability. He directed that we field what we have, 
then improve what we have fielded. The President thus codified in 
national policy the principle of Evolutionary, Capability-Based 
Acquisition and applied it to missile defense.
    The President's direction also builds on the 1999 National Missile 
Defense Act. Under this Act, deployment shall take place ``as soon as 
technologically possible.'' The fact is that ballistic missile defense 
has proven itself technologically possible. Not only have most of the 
well-publicized flight tests been successful, but so have the equally 
important computer simulations and software tests. Those tests and 
upgrades will continue for a long time to come--long after the system 
is fielded and long after it is deemed operational. After all, this is 
the heart of evolutionary, capability-based acquisition. This is not a 
concept designed to trick or mislead. It is simply the logical response 
to the following question: Defenseless in the face of unpredictable 
threats, which would we rather have--some capability today or none as 
we seek a one hundred percent solution?
    When we put the midcourse elements (GMD and Aegis BMD) of the BMD 
system on alert, we will have a capability that we currently do not 
have. In my opinion, a capability against even a single reentry vehicle 
has significant military utility. Even that modest defensive capability 
will help reduce the more immediate threats to our security and enhance 
our ability to defend our interests abroad. We also may cause 
adversaries of the United States to rethink their investments in 
ballistic missiles. Because of this committee's continued support we 
will have some capability this year against near-term threats.
    I must emphasize that what we do in 2004 and 2005 is only the 
starting point--the beginning--and it involves very basic capability. 
Our strategy is to build on this beginning to make the BMD system 
increasingly more effective and reliable against current threats and 
hedge against changing future threats.
    We have made significant strides towards improving our ability to 
intercept short-range missiles. Two years ago we began sending Patriot 
Advanced Capability 3 (PAC-3) missiles to units in the field. Based on 
the available data, the Patriot system, including PAC-3, successfully 
intercepted all threatening short-range ballistic missiles during 
Operation Iraqi Freedom last year. Today, it is being integrated into 
the forces of our allies and friends, many of whom face immediate 
short- and medium-range threats. We believe it is the only combat-
tested missile defense capability in the world.
    This year we are expanding our country's missile defense portfolio 
by preparing for alert status a BMD system to defend the United States 
against a long-range ballistic missile attack. Chart 2 provides a basic 
description of how we could engage a warhead launched against the 
United States.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                     Chart 2.--Engagement Sequence

    Last year, we made it clear that this initial capability would be 
very basic if it were used. We also emphasized that instead of building 
a test bed that might be used operationally, we would field more 
interceptors and have them available for use while we continue to test. 
Because the test bed provides the infrastructure for this initial 
capability, the additional budget request for the twenty Block 2004 
interceptors and associated support was about $1.5 billion in fiscal 
year 2004 and fiscal year 2005.
    Forces to be placed on alert as part of the initial configuration 
include up to 20 ground-based interceptors at Fort Greely, Alaska and 
Vandenberg AFB, an upgraded Cobra Dane radar on Eareckson Air Station 
in Alaska, and an upgraded early warning radar in the United Kingdom. 
We are procuring equipment for three BMD-capable Aegis cruisers with up 
to ten SM-3 missiles to be available by the end of 2005. The Navy is 
working very closely with us on ship availability schedules to support 
that plan. Additionally, ten Aegis destroyers will be modified with 
improved SPY-1 radars to provide flexible long-range surveillance and 
track capability of ICBM threats by the end of 2005, with an additional 
five destroyers with this capability by 2006, for a total of 15 Aegis 
BMD destroyers and three Aegis BMD cruisers.
    The fiscal year 2005 request funds important for Block 2006 
activities to enhance those capabilities and system integration, which 
I will discuss in a moment.
    The Missile Defense Agency, the Combatant Commanders, the Joint 
Staff, the Military Services, and the Director, Operational Test and 
Evaluation (DOT&E) are working together to prepare for Initial 
Defensive Operations (IDO). Using the core capability provided by 
Ground-based Midcourse Defense (GMD) and augmenting it with the 
appropriate Command, Control, Battle Management and Communications 
(C\2\BM/C) infrastructure between Combatant Commanders and exploiting 
the Aegis contribution in a surveillance and track mode, we have 
created an initial capability from which we can evolve.
    Our current fielding plans have been built on the Test Bed 
configuration we proposed two years ago and are within 60 days of our 
schedule. Silo and facility construction at Fort Greely, Alaska and 
Vandenberg Air Force Base in California is proceeding well. 
Preparations at Eareckson Air Station in Shemya, Alaska are on track. 
Over 12,000 miles of fiber optic cables connecting major communication 
nodes are in place, along with nine satellite communications links. We 
are in the process of upgrading the Early Warning Radar at Beale Air 
Force Base and are well underway building the sea-based X-band radar. 
Our brigade at Schriever Air Force Base and battalion fire control 
nodes at Fort Greely are connected to the Cheyenne Mountain Operations 
Center. The C\2\BM/C between combatant commanders, so essential to 
providing situational awareness, is progressing well and is on 
schedule. Upgrades to the Cobra Dane Radar are ahead of schedule. The 
Chief of Naval Operations has identified the first group of Aegis ships 
to be upgraded with a BMD capability, and the work to install the 
equipment on the first of these ships has begun.
    Once the system is placed on alert, we will continue to conduct 
tests concurrently to gain even greater confidence in its operational 
capability. Additionally, we plan activities to sustain the concurrent 
test and operations and support of the system. We are laying in the 
infrastructure to build, test, sustain, and evolve our system as a part 
of the capabilities-based approach inherent in our strategy.
    An integral working relationship with the warfighter, the BMD 
system user, is critical to the success of this mission. We are working 
together to ensure that we field a system that is militarily useful and 
operationally supportable and fills gaps in our defenses. The support 
centers we are establishing will provide critical training to 
commanders in the field. The necessary doctrines, concepts of 
operation, contingency plans, and operational plans are being developed 
under the lead of U.S. Strategic Command (USSTRATCOM) and in 
cooperation with U.S. Northern Command, Pacific Command, European 
Command, and United States Forces in Korea.
     improving fielded capability through evolutionary acquisition
    The system's evolutionary nature requires us to look out over the 
next three or four years and beyond in our planning. Although it is not 
easy, we have laid out a budget and a plan to shape the missile defense 
operational architecture beyond the Block 2004 initial defensive 
capability.
    In this budget, beginning with Block 2006 we will increase GMD 
Ground-Based Interceptors (GBIs) and Aegis SM-3 interceptors, deploy 
new capabilities (such as THAAD), expand our sensor net (with a second 
sea-based midcourse radar and forward deployable radars), and enhance 
the C\2\BM/C system integration. The fiscal year 2005 request begins to 
fund important Block 2006 activities to enhance existing capabilities 
and system integration. Our improvement plan is to add up to ten GBIs 
to the site at Fort Greely and possibly initiate long-lead acquisition 
of up to ten more for fielding at a potential third site or at Fort 
Greely. We will continue to augment our sea-based force structure with 
additional SM-3 interceptors and BMD-capable Aegis-class ships.
    Much of this system augmentation effort involves extending and 
building on capabilities that we have been working on over the past 
several years, so I am confident that what we are doing is both 
possible and prudent and in line with our missile defense vision.
    The confidence we achieve through our entire test program is 
reinforced by the fact that many missile defense test articles fielded 
in the existing test bed are the same ones we would use in an 
operational setting. Except for interceptors, which are one-time use 
assets, we will use the same sensors, ships, communications links, 
algorithms, and command and control facilities. The essential 
difference between an inherent capability in a test bed and the near-
term on-alert capability is having a few extra missiles beyond those 
needed for testing and having enough trained operators and logistics on 
hand and ready to respond around the clock. Once we field the system, 
we will be in a better position, literally, to test system components 
and demonstrate BMD technologies in a more rigorous, more operationally 
realistic environment. Testing will lead to further improvements in the 
system and refinement of our models, and the expansion and upgrades of 
the system will lead to further testing.
    The system we initially will put on alert is modest. It is modest 
not because the inherent capabilities of the sensors and interceptors 
themselves are somehow deficient, but rather because we will have a 
small quantity of weapons. The additional ten missiles for Fort Greely 
will improve the overall system by giving us a larger inventory. Yet 
today, and over the near-term, we are inventory poor. Block activities 
throughout the remainder of this decade will be focused in part on 
improving the system by delivering to the warfighter greater 
capabilities with improved performance.
    Why is this important? In a defense emergency or wartime engagement 
situation, more is better. A larger inventory of interceptors will 
handle more threatening warheads. Our planning beyond the Block 2004 
initial configuration has this important warfighting objective in mind. 
There are no pre-conceived limits in the number of weapon rounds we 
should buy. We will build capabilities consistent with the national 
security objectives required to effectively deter our adversaries and 
defend ourselves and our allies.
    We also must think beyond the initial defensive capability if we 
are to meet our key national security objective of defending our 
friends and allies from missile attack. In Block 2006, we are preparing 
to move forward when appropriate to build a third GBI site at a 
location outside the United States. Not only will this site add synergy 
to the overall BMD system by protecting the United States, but it will 
put us in a better position to defend our allies and friends and troops 
overseas against long-range ballistic missiles. For the cost of ten 
GBIs and associated infrastructure, we will be able to demonstrate in 
the most convincing way possible our commitment to this critical 
mission objective. The location of this site is still subject to 
negotiation with no final architecture defined nor investment committed 
until fiscal year 2006.
    As I have said all along, we are not building to a grand design. We 
are building an evolutionary system that will respond to our technical 
progress and reflect real world developments. We added about $500 
million to last year's projected fiscal year 2005 budget estimate to 
begin funding our Block 2006 efforts. As you can see, the system can 
evolve over time in an affordable way in response to our perception of 
the threat, our technical progress, and our understanding of how we 
want to use the system. Yet even as it does evolve, our vision remains 
constant-to defeat all ranges of missiles in all phases of flight.
        testing missile defenses--we need to build it to test it
    Another key question surrounds the nature of missile defense 
systems themselves. How do you realistically test an enormous and 
complex system, one that covers eight time zones and engages enemy 
warheads in space? The answer is that we have to build it as we would 
configure it for operations in order to test it. That is exactly what 
we are doing by building our test bed and putting it on alert this 
year.
    By hooking it all up and putting what we have developed in the 
field, we will be in a better position to fine-tune the system and 
improve its performance. Testing system operational capability in this 
program is, in many ways, different from operational testing involving 
more traditional weapon systems. All weapon systems should be tested in 
their operational environments or in environments that nearly 
approximate operational conditions. This is more readily accomplished 
for some systems, and is more difficult to do for others.
    For example, an aircraft's operational environment is the 
atmosphere. Similarly, when we conduct rigorous operational tests of 
our Navy's ships, we do so at sea--in their environment. The BMD 
system's operational environment is very different. It is a 
geographically dispersed region that is also a test bed. For both 
missile defense testing and operations, geography counts. After we have 
gone through the simulations, the bench tests, and the flybys, we want 
to test all missile defense parts together under conditions that are as 
nearly operationally realistic as we can make them--with sensors 
deployed out front, with targets and interceptors spaced far enough 
apart to replicate actual engagement distances, speeds and sequences, 
with communication links established, and with command and control 
elements in place. We in fact have conducted a number of events that 
exercise the projected communication and command and control paths 
required to link elements of the BMD system in what we call 
``Engagement Sequence Groups,'' building our confidence that we can 
combine threat data from different systems across a third of the globe 
to allow for the engagement of ballistic missiles threats to the entire 
United States.
    One of the key questions that we have to answer is: What is the 
role of operational testing in an unprecedented, evolutionary, 
capability-based program? The answer is that the Director, Operational 
Test and Evaluation, and the Operational Test Agencies play a critical 
role in missile defense. Since evolutionary, capability-based processes 
do not fit the traditional ORD-based operational test methodology, we 
have applied an assessment approach that provides for a continuous 
assessment of the capabilities and limitations of the BMD system. Since 
testing is central to our RDT&E program and our operational 
understanding of the system, we are continuing to modernize and improve 
our test infrastructure to support more operationally realistic 
testing.
    We are working very closely with Mr. Christie, the DOT&E, and the 
operational test community. As our tests are planned, executed, and 
evaluated, the BMD system Combined Test Force, which brings together 
representatives from across the testing community, is combining 
requirements for both developmental and operational capability testing. 
Wherever possible we are making every test both operationally realistic 
and developmental. We have been working daily with the appropriate 
independent operational test agencies (OTA) to ensure they are on board 
with our objectives and processes. There are approximately 100 
operational test personnel embedded in all facets of missile defense 
test planning and execution who have access to all of our test data. 
They have the ability to influence every aspect of our test planning 
and execution.
    Now, how much confidence should we have in using this test bed in 
an alert status? The full range of missile defense testing--from our 
extensive modeling and simulation and hardware-in-the-loop tests to our 
ground and flight testing--makes us confident that what we deploy will 
work as intended. We do not rely on intercept flight tests to make 
final assessments concerning system reliability and performance. Our 
flight tests are important building blocks in this process, but the 
significant costs of these tests combined with the practical reality 
that we can only conduct a few tests over any given period of time mean 
we have to rely on other kinds of tests to prove the system. System 
capabilities assessed for IDO will be based on test events planned for 
fiscal year 2004 as well as data collected from flight and ground tests 
and simulations over the past several years.
    The missile defense test program helps define the capabilities and 
limitations of the system. The thousands of tests we conduct in the 
air, on the ground, in the lab, and with our models and simulations in 
the virtual world predict system performance and help identify problems 
so that we can fix them. They also highlight gaps so that we can 
address them. This accumulated knowledge has and will continue to 
increase our confidence in the effectiveness of the system and its 
potential improvements. None of our tests should act as a strict 
``pass-fail'' exercise telling us when to proceed in our development or 
fielding. We can approximate realistic scenarios, though, after we have 
put interceptors and sensors in the field and integrated them with our 
C\2\BM/C network.
    We conduct other kinds of tests that provide valuable information 
about the progress we are making and the reliability of the system. 
Integrated ground tests, for example, are not subject to flight test 
restrictions and can run numerous engagement scenarios over the course 
of a few weeks. Our modeling and simulation activity is an even more 
powerful system verification tool. It is important to understand that 
in the Missile Defense Program we use models and simulations, and not 
flight tests, as the primary verification tools. This approach is 
widely used within the Department, especially when complex weapon 
systems are involved.
    Currently, we have very good models for each one of our system 
components, and we are able to use these together to run scenarios so 
that we can understand the environments within which we operate and 
characterize the margin we have in the system design. Missile defense 
ground and flight tests anchor the data we produce in our models, which 
in turn enhance our confidence regarding the operational capability we 
can achieve, because we can understand the system's behavior in many 
hundreds of test runs. These models are regularly updated using test 
data from our ground and flight tests. Over time we are building up our 
modeling and simulation capability at the system level to approximate 
more closely the type of end-to-end testing we would like to have to 
verify that the system is doing what we want it to do.
    For example, our modeling and simulation capabilities are very 
accurate and allow us to mirror the achieved outcome of a flight test. 
The graphic below provides an example of why we believe our simulation 
capabilities to be the most powerful tools for projecting the 
reliability of the initial BMD system. In Figure 1 we have mapped out 
the predicted performance of the Integrated Flight Test 13B interceptor 
and matched it up with performance data we collected during the flight. 
The match up is nearly exact, and it shows that the Exo-atmospheric 
Kill Vehicle Mass Simulator was very close to the predicted insertion 
point velocity.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                   Figure 1. Booster Velocity/IFT 13B

    Generally, when we deploy a weapon system in a traditional mission 
area, it is appropriate to conduct initial operational testing to 
ensure that the replacement system provides a better capability than 
the existing system. Put another way, there is a presumption that the 
deployed system should be used until a better capability is proven. In 
the current situation, where we have no weapon system fielded to defend 
the United States against even a limited attack by ICBMs, that 
presumption must be re-examined. With the provision of a militarily 
useful capability, even if it is limited, it is presumed that the 
capability can be fielded unless it is determined that operating the 
initial capability is considered to be an unacceptable danger to the 
operators, or any other similar reality.
    USSTRATCOM will factor in all available test information into its 
military utility assessment of the fielded condition.
   ballistic missile defense system research and development program
    We have requested $7.6 billion in fiscal year 2005 to continue our 
investment in missile defense RDT&E. Why do we need this level of 
investment in RDT&E? We need to press forward with our missile defense 
research and development if we are to improve the system by integrating 
upgraded or more advanced components and by exploiting new basing modes 
to engage threat missiles in, for example, the boost phase of flight. 
We have to lay the RDT&E foundation for evolutionary improvements to 
the BMD system. We intend to improve the capability of the midcourse 
phase while adding additional layers.
    The RDT&E program is working. The ability to make trade-offs among 
our development activities has allowed us to focus on the development 
of the most promising near-term elements, namely, GMD, Aegis BMD and 
PAC-3. GMD and Aegis BMD make up elements of the midcourse defense 
layer while PAC-3 provides capability in the terminal layer. The GMD 
fiscal year 2005 budget request is $3.2 billion; the request for Aegis 
is $1.1 billion.
    In this budget we increase investment in the development of a boost 
layer. Two program elements, a high energy laser capability and a new 
kinetic energy interceptor (KEI) or ``hit to kill'' capability, 
represent parallel paths and complement each other. Achieving 
capability in the boost phase as soon as practicable would be a 
revolutionary, high-payoff improvement to the BMD system. Although the 
technologies are well known, the engineering and integration required 
to make them work are very high risk. Therefore, having parallel 
approaches, even on different timelines, is a very prudent program 
management approach. We expanded our efforts in the boost phase as soon 
as we were able after withdrawal from the 1972 Anti-Ballistic Missile 
(ABM) Treaty, which specifically prohibited boost phase development 
against long-range missiles.
    The Airborne Laser (ABL) program has been in development since 
1996. Development of an operational high energy laser for a 747 
aircraft is a difficult technical challenge. Although we have had many 
successes in individual parts of the program, we have not been able to 
make some of our key milestones over the past year. The last 20 percent 
of the program effort has proven to be very difficult, and some of the 
risks we took early in the program have impaired our present 
performance. Consequently, I reviewed the program late last year and 
directed a restructure that focused on our near-term efforts, delaying 
the procurement of the second aircraft until we could gain more 
confidence in our ability to meet schedules. I have adjusted the 
resources accordingly.
    We no longer plan for ABL to deliver a contingency capability in 
Block 2004. There have been, nevertheless, several technical 
accomplishments to date. We have demonstrated the capability to track 
an ICBM in the boost phase using ABL technologies and improved beam 
control and fire control technologies. At this time there is no reason 
to believe that we will fail to achieve this capability. This is such a 
revolutionary and high payoff capability; I believe we should again be 
patient as we work through the integration and test activities. But the 
risks remain high. The fiscal year 2005 budget request is $474 million 
for ABL.
    We undertook the KE boost effort in response to a 2002 Defense 
Science Board Summer Study recommendation. In December 2003 we awarded 
the contract for development of the KEI boost effort. This was the 
first competition unconstrained by the ABM Treaty. It was also the 
first to use capability-based spiral development as a source selection 
strategy. The contract requires development of a boost phase 
interceptor that is terrestrial-based and can be used in other 
engagement phases as well--including the midcourse and possibly exo-
atmospheric terminal phases. In other words, it could provide boost 
phase capability as well as an affordable, competitive next-generation 
replacement for our midcourse interceptors and even add a terminal 
phase capability should it be required. In 2005, we will begin 
conducting Near-Field Infrared Experiments to get a close-up view from 
space of rocket plumes to support the development of the terrestrial-
based interceptor seeker and provide additional data needed for the 
development of a space test bed.
    We have budgeted about $500 million for the KE boost effort for 
fiscal year 2005. I believe this funding is necessary for a successful 
start. Those who would view this amount as a significant increase that 
is unwarranted for a new effort do not understand the importance of 
prudent programming and the preparatory work required to make such a 
program ultimately succeed. There are many examples of an under-funded 
systems engineering effort, where engineering costs sky-rocketed 
because adequate upfront work was not done. Mr. Chairman, I urge the 
committee to look carefully at our proposal and allow us to get a solid 
start on this essential piece of the layered BMD system.
                        other budget highlights
    Funding in the fiscal year 2005 request supports the Block 2004 
initial configuration as well as activities to place the BMD system on 
alert. It also lays the foundation for the future improvement of the 
system. We are requesting $9.2 billion to support this program of work, 
which is approximately a $1.5 billion increase over the fiscal year 
2004 request. The increase covers costs associated with fielding the 
first GMD, Aegis BMD, sensor, and command, control and battle 
management installments and will allow us to purchase long-lead items 
required for capability enhancements in Block 2006.
    We have made a successful transfer of the PAC-3 program to the Army 
and remain convinced that the Department made the right decision in 
doing so. In the Patriot system, missile defense and air defense are so 
intertwined that attempting to manage them separately would be 
difficult if not futile. We continue to believe that the Army is in the 
best position, given the maturity of the PAC-3, to manage future 
enhancements and procurements. Meanwhile MDA remains fully cognizant of 
the Army's efforts and maintains the PAC-3 in the BMD system as a fully 
integrated element, with interfaces controlled by our configuration 
management process. PAC-3 is part of our ongoing system development and 
testing.
    The fiscal year 2005 funding request will buy equipment to ramp up 
the testing of THAAD, which, once fielded, will add endo-atmospheric 
and exo-atmospheric terminal capabilities to the BMD system to defeat 
medium-range threats. Terminal High Altitude Area Defense (THAAD) is 
progressing well and will add capabilities to engage in the late 
midcourse and terminal layers. THAAD recently completed the Design 
Readiness Review, and development hardware manufacturing is underway. 
The fiscal year 2005 budget request is $834 million for THAAD. Delivery 
of the THAAD radar was completed ahead of schedule and rolled out this 
month. Flight testing is scheduled to begin in the first quarter of 
fiscal year 2005 at White Sands Missile Range, New Mexico.
    We will be able to begin assembly and integration of two Space 
Tracking and Surveillance System (STSS) satellites. The fiscal year 
2005 budget request for STSS is $322 million.
    We will continue development of the C\2\BM/C ``backbone'' to 
provide real-time sensor-netting to the warfighter for improved 
interoperability and decision-making capability. Additional BMD system 
C\2\BM/C suites and remote capability will be deployed to Combatant 
Commanders as the system matures.
    We also have several Science and Technology initiatives to increase 
BMD system firepower and sensor capability and extend the engagement 
battle space of terminal elements. One of our main efforts is to 
increase BMD system effectiveness in the midcourse phase by placing 
Multiple Kill Vehicles on a single booster, thus reducing the 
discrimination burden on BMD sensors. We also are conducting important 
work on advanced systems to develop laser technology and laser radar, 
advanced discrimination, improved focal plane arrays, and a high-
altitude airship for improved surveillance, communication, and early 
warning. In support of this, we have requested about $200 million in 
the fiscal year 2005 budget request for the development of advanced 
systems.
                       international partnerships
    In December 2003, through a formal Cabinet Decision, the Government 
of Japan became our first ally to proceed with acquisition of a multi-
layered BMD system, basing its initial capability on upgrades of its 
Aegis destroyers and acquisition of the SM-3 missile. In addition, 
Japan and other allied nations will upgrade their Patriot units with 
PAC-3 missiles and improved ground support equipment. We have worked 
closely with Japan since 1999 to design and develop advanced components 
for the SM-3 missile. This project will culminate in flight tests in 
2005 and 2006 that incorporate one or more of these components. These 
decisions represent a significant step forward with a close ally and we 
look forward to working together on these important efforts.
    We are undertaking major initiatives in the international arena in 
this budget. Interest among foreign governments and industry in missile 
defense has risen considerably over the past year. We have been working 
with key allies to put in place mechanisms that would provide for 
lasting cooperative efforts.
    We will begin in fiscal year 2005 to expand international 
involvement in the program by encouraging international industry 
participation and investment in the development of alternative boost/
ascent phase element components, such as the booster, kill vehicle, 
launcher, or C\2\BM/C. This approach reduces risk, adds options for 
component evolution for potential insertion during Block 2012, and 
potentially leads to an indigenous overseas production capability. We 
intend to award a contract for this effort this year.
    In 2003 the United States signed a Memorandum of Understanding on 
Ballistic Missile Defense with the United Kingdom and an annex enabling 
the upgrade of the Fylingdales early warning radar. We are continuing 
our consultations with Denmark regarding the upgrade of the Thule radar 
site in Greenland. Australia has announced plans to participate in our 
efforts, building on its long-standing defense relationship with the 
United States. Canada also has entered into formal discussion on 
missile defense and is considering a BMD role for the U.S.-Canadian 
North American Aerospace Defense Command (NORAD). Our North Atlantic 
Treaty Organization partners have initiated a feasibility study for 
protection of NATO territory against ballistic missile attacks, which 
builds upon ongoing work to define and develop a NATO capability for 
protection of deployed forces.
    We are continuing work with Israel to implement the Arrow System 
Improvement Program and enhance its missile defense capability to 
defeat the longer-range ballistic missile threats emerging in the 
Middle East. We are also establishing a capability in the United States 
to co-produce specified Arrow interceptor missile components, which 
will help Israel meet its defense requirements more quickly and 
maintain the U.S. industrial work share. We are intent on continuing 
U.S.-Russian collaboration and are now working on the development of 
software that will be used to support the ongoing U.S.-Russian Theater 
Missile Defense exercise program.
    We have other international interoperability and technical 
cooperation projects underway as well and are working to establish 
formal agreements with other governments. Our international work is a 
priority that is consistent with our vision and supportive of our 
goals.
        world-class systems engineering--the key success factor
    The President's direction to defeat ballistic missiles of all 
ranges in all phases of flight drove us to develop and build a single 
integrated system of layered defenses and forced us to transition our 
thinking to become more system-centric. We established the Missile 
Defense National Team to solve the demanding technical problems ahead 
of us and capitalize on the new engineering opportunities created by 
our withdrawal from the ABM Treaty. The National Team brings together 
the best, most experienced people from the military and civilian 
government work forces, industry, and the federal laboratories to work 
aggressively and collaboratively on one of the nation's top priorities. 
No single contractor or government office has all the expertise needed 
to design and engineer an integrated and properly configured BMD 
system. Let me give a perspective on why the National Team is so 
important.
    What we have accomplished is an unprecedented integration of 
sensors communications infrastructure, and weapons that cut across 
Service responsibilities on a global scale. Even our first engagement 
sequence involves an unparalleled accomplishment.
    The BMD system will engage a long-range ballistic missile threat 
across 9,500 miles. Threat messages sent by an Aegis destroyer will 
pass this data across eight BMD system communication nodes. System data 
travels across approximately 48,000 miles of communication lines. The 
engagement takes place 3,500 from Fort Greely at an altitude of 100 
kilometers. At no time in history has there been an engagement 
performed by detection and weapon engagement systems separated by such 
distances. Over the past year and a half, we have rapidly built 
confidence in this weapon engagement capability through the use of 
proven systems and technologies coupled with robust integrated tests 
and exercises.
    The National Team's job has not been easy. System engineers work in 
a changed procurement and fielding environment, which in the missile 
defense world means making engineering assessments and decisions based 
on technical objectives and goals and possible adversary capabilities 
rather than on specifications derived from more traditional operational 
requirements documents. This unified industry team arrangement does not 
stifle innovation or compromise corporate well-being. There is firm 
government oversight and greater accessibility for all National Team 
members to organizations, people, and data relevant to our mission. We 
accomplished this without abandoning sound engineering principles, 
management discipline, or accountability practices.
    Significant benefits have resulted from this unique approach. Early 
on, this team brought to the program several major improvements, 
including: system-level integration of our command and control network; 
adoption of an integrated architecture approach to deal with 
countermeasures; development of a capability-requirement for forward-
based sensors, such as the Forward Deployable Radar and the Sea-Based 
X-Band Radar; and identification of initial architecture trades for the 
boost/ascent phase intercept mission. The National Team also developed 
and implemented an engagement sequence group methodology, which 
optimizes performance by looking at potential engagement data flows 
through the elements and components of the system independent of 
Service or element biases. If we had retained the traditional element-
centric engineering approach, I am doubtful that any one of the element 
prime contractors would have entertained the idea of a forward-based 
radar integrated with a ``competing'' system element. The National Team 
is central to this program.
                  responsible and flexible management
    Congressional support for key changes in management and oversight 
have allowed us to execute the Missile Defense Program responsibly and 
flexibly by adjusting the program to our progress every year, improving 
decision cycle time, and making the most prudent use of the money 
allocated to us.
    One of the key process changes we made in 2001 was to engage the 
Department's top leadership in making annual decisions to accelerate, 
modify, or terminate missile defense activities. We take into account 
how each development activity contributes to effectiveness and synergy 
within the system, technical risk, schedules, and cost, and we then 
assess how it impacts our overall confidence in the effort. We have 
successfully used this process over the past three years.
    Today's program is significantly different from the program of 
three years ago. In 2001 and 2002 we terminated Space-Based Laser 
development in favor of further technology development; restructured 
the Space-Based Infrared Sensors (Low) system, renaming it the Space 
Tracking and Surveillance System, to support more risk reduction 
activities; cancelled the Navy Area program following significant cost 
overruns; and accelerated PAC-3's deployment to the field. We also 
proposed a modest beginning in fielding the BMD system and put Aegis 
BMD and its SM-3 interceptor on track to field.
    This year we have restructured the ABL program to deal more 
effectively with the technical and engineering challenges before us and 
make steady progress based on what we know. We also decided to end the 
Russian-American Observation Satellite (RAMOS) project because of 
rising levels of risk. After eight years of trying, RAMOS was not 
making the progress we had expected in negotiations with the Russian 
Federation. So we are refocusing our efforts on new areas of 
cooperation with our Russian counterparts.
    These periodic changes in the RDT&E program have collectively 
involved billions of dollars--that is, billions of dollars that have 
been invested in more promising activities, and billions of dollars 
taken out of the less efficient program efforts. The ability to manage 
flexibly in this manner saves time and money in our ultimate goal of 
fielding the best defenses available on the shortest possible timeline.
    Such decisive management moves were made collectively by senior 
leaders in the Department and in MDA. I believe these major changes are 
unprecedented in many respects and validate the management approach we 
put in place. The benefits of doing so are clearly visible today. When 
something is not working or we needed a new approach, we have taken 
action.
                                closing
    Mr. Chairman, I would like to recognize the many talented and 
dedicated people across this country who have made, and are continuing 
to make, our efforts successful. I have met with people from 
manufacturing facilities, R&D centers, and test centers. I have met 
with people from many different parts of the world who are working on 
our international efforts. Our fellow citizens should be proud of the 
talent, commitment, and dedication that every one of these people 
provides.
    We take our responsibilities very seriously. We have an obligation 
to the President, the Congress, and the American people to get it 
right. With the continued strong support of Congress and this 
committee, we will continue our progress in defending the United 
States, our troops, and our allies and friends against all ranges of 
ballistic missiles in all phases of flight.
    Thank you, and I look forward to your questions.

    Senator Stevens. Thank you very much. I will turn to 
Senator Inouye first.
    Senator Inouye. Mr. Chairman, if I may, may I submit my 
questions?
    Senator Stevens. Yes sir.
    Who was first? Senator Shelby.
    Senator Shelby. Yes sir. Thank you.

               EXOATMOSPHERIC KILL VEHICLE (EKV) REPAIRS

    General, could you give us the progress update on the EKV 
repairs as we approach IFT-13C.
    General Kadish. Yes Senator, I'd be glad to. I'd like to go 
back in history just a little bit. About 1 year ago we decided 
that some design changes were needed to both the kill vehicle 
and our booster to make it better. And that was a result of a 
number of flight tests that we'd done prior to that time.
    Senator Shelby. What have you learned here?
    General Kadish. We've learned, I guess the biggest thing 
we've learned is, it's pretty hard to make some major changes 
in less than 1 year. But we've done it. And we made those 
changes, we put it into the workflow and there's about seven or 
eight kill vehicles in work right now for the balance of this 
year. But in the process of doing that we discovered a circuit 
board that was not manufactured properly. And when we found 
that particular effort we not only decided to fix that circuit 
board, which would have taken about 3 or 4 weeks, or a month, 
of a delay. But we decided that it was in the best interest of 
quality and mission assurance practices to go back and put a 
team of experts--and we put about 40 or 50 people on this 
effort--and we went through each and every aspect of the design 
of the kill vehicle, to make sure that we didn't make any of 
those mistakes that we didn't know about. And we have completed 
that effort, we are in the process of changing a few things 
that we found and that has resulted in a little bit more of a 
delay to the flight tests this year. But I am confident that 
when we complete that process and we actually do the flight 
tests we will have done everything we could possibly do to make 
that kill vehicle work properly.

               GROUND-BASED MISSILE DEFENSE (GMD) FUNDING

    Senator Shelby. General, the ground-based midcourse defense 
segment, the multiple kill vehicle program and the Kinetic 
Energy Interceptor program I think are very important. In the 
2005 funding request it's increased to $9.2 billion, $1.2 
billion over 2004. There's some concerns, though, that GMD is 
underfunded due to greater internal competition for funds. MDA, 
I believe, must find the proper funding balance to accomplish 
its goals and beyond for the Ballistic Missile Defense System 
architecture. I know that you've requested a significant 
increase in funding for the MDA programs, but I'm concerned 
about the health of GMD and success there. Are you trying to do 
too much with too little? I know you never have enough funds. 
Do you want to speak on that?
    General Kadish. Well Senator, that's a problem we deal with 
every day, internally. And you're right. We never have enough 
funds for what we would like to do in any program.
    Senator Shelby. Do you have enough funds to meet your GMD 
development testing and deployment objectives at this point?
    General Kadish. We believe when we balance everything out 
we will have enough resources to do that. I think the GMD part 
of this is about $3.2 or so billion this year, a little bit 
less than that next year, and I think we're working on $2 
billion the following year. In fact, we've added about $1.5 
billion for fiscal year 2004, most of that goes to GMD in the 
sense of further building out missiles and doing the test 
program that we need to do. And we'll continue to look at the 
other aspects of what we need to do and whether it's the multi-
kill vehicle or the Kinetic Interceptor (KI) boost or Aegis, 
and make sure that we do the best we can with the money we 
have. And so far----

                              MDA FUNDING

    Senator Shelby. If you had more money it wouldn't hurt 
anything, would it?
    General Kadish. Senator, I'd never turn down more money. 
But I think it's incumbent on us, internally MDA, to make sure 
that we get the most out of every dollar that we get. And we're 
trying to do that, and it's a constant balancing of effort in 
the process.
    Senator Shelby. Thank you, General.
    Senator Stevens. Senator Burns.
    Senator Burns. General, the Missile Defense Agency's annual 
budget requests are somewhere between $8 and $10 billion. Does 
this funding cover only development, and how are the 
traditional acquisition procurement wedges incorporated with 
the Ballistic Missile Defense System? In other words, have you 
changed anything in there, in that process?
    General Kadish. Yes we have, Senator, and the $8 to $10 
billion request, at least for 2004, 2005, 2006 and part of 2007 
right now includes about anywhere from $1 billion to $2 billion 
a year of money for fielding equipment. Now, I didn't use the 
word procurement here because it has very defined meaning in 
the way the Department talks about procurement money versus 
RDT&E and so forth. Because the Congress has allowed us to use 
research and development money, we're able to do very modest 
procurement or fielding of these types of equipment in the 
beginning. Now, one of the problems we have with the Missile 
Defense in general, is trying to fit it into the mold that the 
Department uses, in that typically we posture a force 
structure. For instance, we might say that there's a need for 
100 or 200 or 300 ground-based interceptors. And we would go 
and we'd fund those, fully fund them in a procurement account 
and we'd have a major growth in the overall process. We're not 
doing that, primarily because it is not clear what mix of 
interceptors we're going to ultimately need for the threats 
that we're going to face. So it is a non-standard approach. 
We're taking it a step at a time. Somewhere in the neighborhood 
of $1 to $2 billion a year right now is programmed to actually 
field equipment out of the RDT&E effort and make it better over 
time, and then when we reach a point where we reach clarity 
with the threat and how many pieces of the system we need, 
we'll go ahead and transition to the normal mode. That's the 
plan that we have.

                         HIGH ALTITUDE AIRSHIP

    Senator Burns. There was another part of what you're doing 
that sort of caught my attention too, and that's high altitude 
airship. I can't help but think that this, if successful, they 
call it the Airship Advanced Concept Technology Demonstration, 
you cut back a little bit on its funding but I happen to think 
that, you know, when we started to talk about space and 
shuttles and we started talking about reuseables and unmanned 
reuseables, I think this program has application, both military 
and commercial, in the civilian end of the world. Is this 
program adequately funded, do you think, to move forward with 
this new technology?
    General Kadish. Senator Burns, I share your desire for this 
type of program because I believe it could be a more affordable 
approach for persistent high altitude and not go to space in 
some cases. I believe it is adequately funded because there are 
big risks in making an airship of this nature to fly at the 
altitudes that we're talking about. So, the program's 
structured to actually reduce those risks by demonstrating we 
can do this initially, and if we can demonstrate we're doing it 
then I wouldn't hesitate to come to you and ask for money to go 
ahead and take it to the full production of those types of 
systems. It's so revolutionary that it could be a major change.
    Senator Burns. It sure is, and I think it has spillover 
into our fuels and the kind of composites and different 
materials that we'll need. It affords a lot of possibilities 
for commercial application as well.
    General Kadish. It certainly does.
    Senator Burns. Thank you, Mr. Chairman.
    Senator Stevens. Senator Cochran.

                       BMD FIELDING ACCELERATION

    Senator Cochran. Mr. Chairman, thank you. General Kadish, I 
understand that your plans for fielding the Ballistic Missile 
Defense capability later this year are proceeding and that 
eight of the planned 20 ground-based interceptors will be 
available for initial defense operations later this year. Can 
you give us some specific current time line expectations for 
this program and whether or not we can help accelerate that 
with additional funding in your budget request?
    General Kadish. Senator, about 1\1/2\ weeks ago we went to 
Huntsville and did what we call 180-day review; 180 days to our 
planned internal MDA dates that we're using for September. And 
I came away from that review very encouraged that we were 
within 30 to 60 days of those schedules right now, and more on 
the on-time than not being on-time. It's still a major 
challenge for us over the next 6 months to do this but right 
now what I see is that we will, in fact, have up to 8 ground-
based interceptors by the end of this calendar year and 12 the 
following year, available for alert capability. As far as 
accelerating anything, I think we set a few years ago the 
schedule and we've actually been meeting it fairly well. So I 
don't see over the next 6 months or even the next 12 months 
that we're going to be able to accelerate anything over and 
above the schedules that we have. I think the major success 
criteria that I'm using is to do it on time, in the process, 
and as quickly as we set up the schedules a few years ago, 
because it was a major challenge to accomplish it. So as much 
as it pains me to say this, but I don't think extra money will 
accelerate the process. It would help us in other areas but not 
necessarily in acceleration.
    Senator Cochran. One of the important----
    General Kadish. And I would not recommend trying to 
accelerate.

   SPACE BASED SENSORS--SPACE TRACKING AND SURVEILLANCE SYSTEM (STSS)

    Senator Cochran. Right. One of the important elements in 
our Missile Defense System is space-based sensors, terrestrial 
sensors. In your statement you mention assembling and 
integrating two space tracking and surveillance system 
satellites, and I understand that these could be launched in 
tandem in 2007. What is your view of where this program is 
headed and how will it contribute to an effective Ballistic 
Missile Defense?
    General Kadish. The space tracking and surveillance system 
is what we used to call SBRS-Low, and we changed the name 
because we got confused with SBRS-High, which was a different 
program, among other things. But the way this would contribute 
is it would provide a low Earth-orbiting set of satellites to 
continuously watch for missile launches and once they're 
launched, track it through the entire phase of flight. If we 
could do that then our ability to engage those ballistic 
missiles and warheads and destroy them would be greatly 
enhanced. I'd like to point out that over the years this 
program has morphed into different aspects and I think the last 
count was that we had 85 separate studies on whether or not to 
do STSS-like constellations or not. And what we decided to do 
was to, rather than do another study, was to put two satellites 
in orbit, get the data that we need to confirm whether or not 
we're going to be able to make this work as we intended, and 
then make a decision subsequent to that on whether or not we'll 
recommend the full constellation of these satellites. We're on 
track to do just that. And the tandem launch in 2007, the 
program activity we have to do that, is on schedule and on 
budget and doing very well.
    Senator Cochran. Is there any particular risk or high risk 
associated with the tandem launch?
    General Kadish. Well, I wouldn't normally like to do a 
tandem launch of this type but it is the most efficient use of 
money and what we found is that if we launched them separately 
and then we lost one satellite we wouldn't be able to do the 
mission anyway. Because these are stereo-viewing satellites; 
you need two of them to accomplish this. So we figured that the 
tandem launch was the best balance of risk and benefit.
    Senator Cochran. Mr. Chairman, I have several other 
questions. I think my time may be expired and I'll reserve my 
other questions for later in the round.
    Senator Stevens. Senator Feinstein.

                           PREPARED STATEMENT

    Senator Feinstein. Thanks very much, Mr. Chairman. Welcome, 
General. I know you're under the weather and I don't want to 
aggravate your condition, so if I could submit my statement for 
the record I will confine my questions.
    [The statement follows:]

             Prepared Statement of Senator Dianne Feinstein

    I believe National Missile Defense is one of the key 
foreign policy and national security issues that we will face 
in the coming decades. The Administration's decisions on this 
issue should be made in a deliberate and thoughtful manner and 
in close consultation with our allies, and, most importantly, 
the United States Congress.
    Previously, I have stated that my concerns about NMD 
revolve largely around four issues: the nature of the threat; 
the implications for arms control and the international 
security environment; the feasibility of the technology; and 
the cost.
    Given the high cost and the still uncertain and untested 
technology, I found it surprising that President Bush has 
declared his intention to deploy a nation-wide missile defense 
this year. Given our mounting budget deficit, the threats to 
United States national security interests around the world and 
the numerous problems facing our military such as aging 
helicopters, aircraft with high accident rates, and a lack of 
bullet proof vests, the Administration's decision to seek $10.2 
billion for a largely untested and unproven missile defense 
program raises serious concerns.
    While we no longer fear the threat of all-out nuclear war, 
the likelihood that America will be attacked with a nuclear, 
chemical, or biological weapon has increased. The proliferation 
of weapons of mass destruction, and the increasing availability 
to other nations as well as transnational groups such as 
terrorist organizations, to the technology and material 
necessary to develop and deliver WMD is perhaps the most 
serious threat to U.S. national security today.
    We need to spend our resources wisely to make sure that we 
can protect our nation from these threats. But the odds that 
terrorists or non-state actors will use ballistics missiles to 
attack the United States in this manner remains, in my 
estimation, relatively low. Missile defense would have done 
nothing to stop 9/11. And missile defense would do nothing to 
stop a bomb smuggled into this country on a container ship or 
through another ``soft'' point of entry.
    National Missile Defense is not and should not be seen as a 
one-size-fits-all substitute for an effective non-proliferation 
strategy. The United States must have a balanced program to 
effectively safeguard our interests and clearly calibrate and 
allocate resources to meet the real challenges that face U.S. 
national security interests including providing for effective 
strategies for non-proliferation activities, deterrence, 
homeland defense, and counter-proliferation.
    I believe it would be folly and far too costly to place too 
much of an emphasis on missile defense and to unilaterally 
develop and deploy NMD before we even know what defensive 
systems are feasible. And likewise I am greatly concerned that 
even as we spend large sums on missile defense, we are not 
doing enough to make sure that resources are allocated to such 
areas as port security. We simply cannot afford to gamble with 
a national security strategy based on cultivating a missile 
defense system of unknown effectiveness on one hand with a less 
stable and less secure world on the other.

            SYSTEM READINESS AND A RUSH TO DEPLOYMENT--WHY?

    Senator Feinstein. I am still puzzled, well, I was puzzled 
last year and I'm still puzzled this year by the rush to deploy 
this system. In March, on the 11th, Senator Jack Reed asked 
this question. At this time we cannot be sure that the actual 
system would work against a real North Korean missile threat. 
And Tom Christie, the director of the Pentagon's Office of 
Operational Tests and Evaluation, replied, I would say that's 
true. There are enormous technical difficulties with 
deployment. The booster rocket has suffered problems; the 
ground-based X-band radar, needed to enhance satellite 
tracking, isn't scheduled to be fielded anytime soon; the sea-
based X-band radar is not scheduled to be fielded until 2005; 
the infrared satellite system, which discriminates warheads 
from decoys and helps guide the interceptor won't be in place 
for many years, and the system can't deal with decoys and 
countermeasures, as I understand the reports. And yet it's 
going to be deployed. My question is why?
    General Kadish. Senator Feinstein, I guess I'd like to go 
back and address specifically those things that you pointed out 
as being apparent deficiencies.
    Senator Feinstein. Good.
    General Kadish. And I use the word ``apparent'' because I'm 
not sure that we have the right description of the problems 
that we're facing. When we say we cannot be sure that we would 
be able to destroy the warheads, I don't think in any of the 
procurements that I've done in the DOD that were 100 percent 
sure of anything. So if 100 percent sure is the standard we're 
not going to meet it so we might as well stipulate that at the 
beginning. However, where we do not have missile defense 
capability today against long-range missiles and that's been 
for 40 years or more now, if we have greater than zero chance, 
and I mean substantially greater than zero, I'm not going to 
tell you exactly what we think it is right now.
    Senator Feinstein. Is it over 50 percent?
    General Kadish. I think that--I'd rather not get into the 
percentage but we have very high odds of engaging and 
successfully destroying the threats that we think we're going 
after right now.
    Now, in the case of the booster and the kill-vehicles and 
the technical challenges, I think you're absolutely right. I 
mean, 4 years ago, almost 5 now, I began testifying in front of 
this committee saying that fiscal year 2005 was the earliest we 
were going to be able to do anything along these lines. And I 
think that has turned out to be true right now. So it's not 
like we, over the last year or two or three this is a rush to a 
particular effort. When we were doing the old National Missile 
Defense (NMD) program, we were saying that fiscal year 2005 was 
probably the earliest, with some risk. We have reduced that 
risk tremendously and we believe we're going to make fiscal 
year 2005 in the process.
    Now, we set internal dates, September that you hear about 
from time to time, but those are MDA dates, they're not 
mandated or dates ascertained by the Department of Defense. So, 
we believe that the sensors that we have on orbit today, the 
Defense Support Program, the radars that we intend with Cobra 
Dane and Fylingdales and then the addition of the X-band radar 
later on will give us the sensors we need. The booster, the 
kill vehicle, they're coming along and we should be flight 
testing them over the next few months to prove out our modeling 
and simulation.
    So, things are going all in the right direction. And I 
guess the best way to characterize the effort, in terms of its 
performance, may sound a little trite, but if someone shoots at 
us we're going to be able to shoot back, whereas we couldn't do 
that today.
    Senator Feinstein. Even if we don't hit anything?
    General Kadish. There's a good chance we're going to hit it 
and we can come talk to you about that in some detail and more 
classified setting. And if I was on the other side right now 
I'd be very worried whether or not the systems that they are 
producing would work against our system. And we're going to 
only make it better after that. The idea that the radar comes 
in in 2005, we've got other plans for further activities as we 
test and make it better that, over time, the countermeasure 
issues and the things that we're dealing with, we're going to 
be very good at.

                      COST JUSTIFICATION OF A BMDS

    Senator Feinstein. One last question. Because you've been 
very straight with us and I really appreciate that. I think 
you're really a class act. I just want you to know that. I 
mean, this is so much money, $10.2 billion a year for what, 7 
years? That's a lot of money to deploy a system that really 
hasn't been really tested in its complete form and at a time 
when our best case for war is asymmetric and non-State and not 
likely to be waged with Intercontinental Ballistic Missile 
(ICBMs) but with something coming in in a container. Do you 
really think, in view of what the next 10 years looks like, 
that a ballistic missile system is the best way to spend our 
money in terms of guaranteeing the safety of our people?
    General Kadish. Well, I can give you a personal opinion on 
that issue; it has two parts to it. The first is that, from 
where I've sat for a number of years, it is a very difficult 
job to know what's likely and unlikely and what our adversaries 
are going to do to defeat us. And we make those judgements but 
we've got to do it with the idea that there's risk involved. 
And I had the unfortunate experience on September 11, sitting 
in my office in the Missile Defense Agency, watching the 
Pentagon burn as a result of the airlines. And, you know, I 
know there's a big debate over whether folks could have 
anticipated that or not, but the likelihood equations of one 
thing over another is a very risky business for us to determine 
in the Missile Defense Agency. But there's one thing I do know, 
and that is we have no missile defense capability except for 
Patriot today against short-range missiles. And that didn't 
happen except with the support of this committee for many 
years, and we struggled with that effort. We had some failures; 
it was a difficult technology but it worked very well in the 
last war. And we're building up. And I believe that the same 
will occur with the systems that we're talking about at Fort 
Greely and Vandenberg, Aegis and THAAD and the ones that we're 
building. Because that $10 billion is not only for the ground-
based program effort at Fort Greely and Vandenberg this year, 
it's for airborne laser, the THAAD program, the Aegis program 
and the radars that support all that. So it's very expensive 
but it's also very comprehensive and complex.
    I don't know if that helped in terms of the answer but it's 
a tough business for us to say, in the missile defense business 
anyway, that we ought to choose to leave ourselves vulnerable 
to missiles anymore now that we can do something about it.
    Senator Feinstein. Thanks, General. And I'd appreciate that 
briefing. Thank you very much.
    General Kadish. Thank you.
    Senator Feinstein. Thank you, Mr. Chairman.
    Senator Stevens. Senator Dorgan.

              DEVELOPMENT OF BMDS WITHOUT ADEQUATE TESTING

    Senator Dorgan. Mr. Chairman, thank you very much. I share 
some of the same concerns expressed by my colleague from 
California. Most of the significant new weapons programs that 
we've been discussing with the Department of Defense I support. 
I think they are important for this country and for its 
defense. But the Senator from California asked questions that I 
think need to be asked. Are we rushing to deploy a system that 
has not been adequately tested, that has not been subject to 
the same rigorous testing strategies that other weapons 
programs have been required to meet? And, you know, there's so 
much, with respect to the more urgent, immediate threats that 
we know exist, there is so much as yet undone because we can't 
afford it. The question I think the Senator from California 
poses is in the rear view mirror of 5 years, will we look back 
and say we would have better used that $10 plus billion in 
another area for a more urgent threat? I think the answer 
probably will be yes, but none of us know for sure.
    Let me ask the question. You talked about the booster and 
the kill vehicle and in answer to the question posed by my 
colleague from California, no one can be 100 percent sure. I 
understand that and no one is asking, with respect to any of 
these systems, that we are 100 percent sure. But will this 
system be deployed without the same kind of rigorous testing 
that is applied to other systems? Because we are rushing here 
to deploy it, as you know.

                           CONCURRENT TESTING

    General Kadish. Well Senator Dorgan, I guess I would 
characterize what we're trying to do here as not a rush to 
deployment. What it is is building the system so we can test it 
in its operational configuration and since we've done that it 
has the capability to defend the country so we will use it in 
that role simultaneously, or concurrently. So one of the things 
I have to point out, and I have a very hard time explaining 
this because it gets to be very technical in terms of the rules 
that we use within the Department, but let me try it this way. 
When we do operational testing, what that means is we want the 
people who are going to use it to push the buttons and do all 
the things that we need to do so that in an operational 
environment, day to day, we can be sure it works. And you might 
want to ask the question, well, why do we do that? Well, 99 
percent of the time we do that because we're replacing another 
system, and what we want to do is make sure good management 
practice is that what we're replacing, the system that we're 
replacing something with can work better or at least as good 
as, in the operational environment, after having spent a lot of 
money. So these things usually occur after a very long 
development cycle. We do an operational test, we check some 
boxes, make sure that things work better than what we have in 
the field and we move on. In the case of missile defense, we 
don't have a system in the field today against long-range 
missiles. So we have to build it in order to test it in its 
operational configuration. We get criticized a lot about not 
having the radars in the right spot and that type of thing. I 
can go on at length, but the simple answer to that is we need 
to build it to test it in its operational configuration and 
therefore we can actually use it as well.
    Senator Dorgan. Well, building it and deploying are 
different circumstances, but General Kadish, the only anti-
ballistic missile program that has ever been deployed was 
deployed in my State back in the early 1970s and was moth 
balled almost immediately, I believe within 30 days after being 
declared operational, for a number of reasons.

                      RUSH TO DEPLOY OR POSTPONE?

    But I have received a letter that was sent around on this 
program from 49 generals and admirals who call for postponing 
missile defense. They say the Pentagon has waived the 
operational testing requirements essential to determine whether 
the highly complex system is effective and suitable, and they 
make the case that this money, the billions of dollars, should 
be spent on other defensive systems, which are more urgent.
    If I might just make the case, I think there is a threat of 
nuclear weapons against this country. I think the least likely 
threat, by the way, is from an intercontinental ballistic 
missile. Perhaps the most likely threat is from a suitcase 
nuclear weapon in a rusty car on a dock in New York City. But 
if you take the threat meter, which many of us have seen, 
regarding what are the likely threats against this country, the 
threat of a nuclear-tipped intercontinental ballistic missile 
is perhaps the least likely of those threats. It would be 
deadly, were we attacked by someone with such a weapon. But 
such an attack is deterred because we, of course, know the 
return address of the missile, and whoever attacks us will be 
vaporized quickly. I mean, I think the question that the 
Senator from California asked is a critical one; is this the 
most urgent defensive system for which we should be spending 
$10 billion at this point, and I don't think any of us know the 
answer to this. My own impression, I just might say, is that we 
are rushing to deploy a system that is costing a great deal of 
money and one which we do not know whether it will work. And 
I'm concerned about that because there are so many other things 
as yet undone.
    Let me add, however, my compliments to your service, 
General Kadish. I've been in briefings that you've been 
involved in for many years; you served this country with great 
distinction. I know you care about this program and nurture 
this program with great skill and professionalism; I want to 
say that and thank you very much, General, for your service.
    General Kadish. Thank you, Senator Dorgan.
    Senator Stevens. General, are we about ready to wind this 
up?
    General Kadish. I'm fine, Senator.
    Senator Stevens. Are you? All right.
    I will submit my questions.
    Senator, do you have any further questions?
    Senator Shelby. Let me be brief if I can. I know we need to 
let General Kadish go.
    General Kadish. Yes sir.

              SYSTEM TEST AND EVALUATION PLANNING ANALYSIS

    Senator Shelby. General, you might want to answer these 
questions for the record, that would be fine. That is, I've 
been impressed with the systems test and evaluation planning 
analysis lab. How will system-integrated flight testing help 
meet the architecture integration challenge in the future? How 
rigorous will this testing be? Do you want to answer that for 
the record?
    General Kadish. It will become more and more rigorous, 
without a doubt. I think that if we--I'd like to take the 
specifics of the systems tests analysis lab for the record.
    Senator Shelby. Absolutely.
    [The information follows:]

    The System Test and Evaluation Planning Analysis Lab 
(STEPAL) is the Missile Defense Agency's choice for in-depth 
analyses and credible flight test planning. We currently use 
STEPAL resources to perform vigorous pre-mission analysis that 
includes supportability, evaluation of test requirements, 
flight safety, and other factors necessary for the successful 
execution of integrated Ballistic Missile Defense System (BMDS) 
test scenarios. The support provided by the STEPAL has provided 
MDA with a quick look capability that allows us to observe 
additional important mission aspects such as safety, debris 
effects; telemetry coverage; as well as the adequacy of test 
range assets.

    General Kadish. But I'd like to point out that because 
we're able to build it like we are, calendar year 2005 is going 
to be a very, very interesting year in missile defense from a 
test standpoint because we'll be able to do an awful lot of 
flight testing and ground testing that we haven't been able to 
do before.

  SCIENTIFIC, ENGINEERING AND TECHNICAL ASSISTANCE (SETA) CONTRACTORS

    Senator Shelby. General, for the record, would you give us 
your views on the importance of SETA contractor support and how 
valuable their contributions have been to MDA?
    General Kadish. The SETA contractors, the support 
engineering? It's been invaluable to MDA from across the 
country, especially from the State of Alabama and Huntsville, 
which is a major center for missile defense. But we couldn't do 
it without the talented people that we have across the country, 
especially the SETA contractors, the prime industrial partners 
and the Federally Funded Research and Development Center 
(FFRDCs) and folks.
    Senator Shelby. You made some cuts there. Is that wise? I 
know you're constrained by your budget from time to time. Will 
you address that some?
    General Kadish. Well, what we've been doing is trying to 
balance out the skills that we need at any given time. And that 
can look like a cut in certain areas but basically we're trying 
to balance the skills that we need in the process.

                      ADVANCED TECHNOLOGY FUNDING

    Senator Shelby. General, advanced technology funding; I 
think you've got to invest for the future. You know, some 
people, and I at times ask about money, and we're spending a 
lot of money but if we don't spend for the future we'll be 
shortchanged, I believe. Development funding for sensor 
improvement, better software, faster communication systems, 
improved propulsion systems, lighter and strong structures, 
better thermal control, enhanced signature discrimination, 
decoy concepts and detection techniques are vital to all of us 
and for this program. Does MDA have an adequate technology 
development budget to support spiral development here or will 
you need more money?
    General Kadish. Well, I think that we can get the specifics 
for you for the record but overall I'm satisfied with where we 
are on the deep technology activities. Because when I look at 
what's happening in the THAAD program and the GMD program and 
the other efforts that we have, we're doing an awful lot of 
that work in the application of technology right now. And it's 
a tough balance but I think the balance is right, right now.

     SPACE AND MISSILE DEFENSE COMMAND (SMDC) AND MDA RELATIONSHIP

    Senator Shelby. General, lastly, I'm just going to touch on 
the relationship between SMDC and MDA. You can do this for the 
record. What are your thoughts on this relationship and the 
importance of SMDC to supporting MDA's mission?
    General Kadish. I can expand for the record but the bottom 
line, Senator, is that it's a great relationship now, and we 
have people working together on some very tough problems.
    [The information follows:]

    The relationship between MDA and SMDC is strong. The 
success of my organization is dependent on the technology 
support that SMDC provides. As the Army's proponent for the 
Ground-based Midcourse Defense (GMD) System and operational 
integrator for global missile defense, the Army's Space and 
Missile Defense Command (SMDC) plays a key role in supporting 
MDA to develop, field, and test a fully integrated and 
operational Ballistic Missile Defense System (BMDS) capability 
for the nation. SMDC is a strong and effective advocate for 
global missile defense and works closely with MDA to ensure our 
national goals of developing, testing and deploying an 
integrated missile defense system are met. SMDC conducts 
research and develops and matures new and emerging technologies 
to enable missile defense capabilities. SMDC's Reagan Test 
Facility on Kwajalein Atoll supports missile defense testing. 
SMDC participates in deploying and operating the GMD System, 
including oversight of GMD Brigade and subordinate GMD 
Battalion operations. SMDC also works closely with MDA to focus 
attention on improving Theater Air and Missile Defense (TAMD) 
Systems. The long legacy and continuing research and 
development by SMDC in the missile defense arena has made 
possible the recently fielded missile defense systems and will 
provide the means for future enhancements and new weapon 
systems.

    Senator Shelby. Thank you. Mr. Chairman, thank you for your 
indulgence. General, I hope you feel a little better today.
    General Kadish. Thank you, Senator.
    Senator Stevens. Mr. Cochran.
    Senator Cochran. Mr. Chairman, I have other questions that 
I'll be happy to submit, particularly one relating to the 
capability for Aegis destroyers and cruisers to play an active 
role in missile defense and what your plans are for 
coordinating the operations with the Navy and helping to offset 
costs associated with these modifications and other questions 
as well. I'd be happy to submit those, Mr. Chairman, and 
express our appreciation for the continued good work of General 
Kadish.
    Senator Stevens. General, I think that Senator Inouye and I 
have been privileged to spend probably more time with you than 
other members of this committee and we thank you for the time 
you've spent with us to keep us posted on the developments. I 
have a series of questions that I would like to send to you for 
the record.
    Senator Shelby. Mr. Chairman, could I just mention, we have 
a Major General sitting behind General Kadish, General Obering, 
here today, and I think we'll probably see more of him in the 
future, will we not, General Kadish?
    General Kadish. Yes sir, he's been nominated to the Senate 
to replace me and he's a great guy.
    Senator Shelby. And Mr. Chairman, he's from Birmingham, 
Alabama, it just happened to happen that way.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Stevens. Well, since he wasn't from Alaska I didn't 
introduce him but I knew he was there. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted by Senator Ted Stevens
                  ground-based missile defense program
    Question. General Kadish, can you assure the Committee that the 
Missile Defense Agency will continue to improve the ground-based 
missile defense system? I am concerned about technical obsolescence of 
the program--technology will continue to move forward--how will you 
deal with this?
    Answer. The Ground-Based Midcourse Defense (GMD) program will 
continue to improve well beyond the Initial Defense Capability that is 
being fielded this year. We are planning upgrades to the current 
system, and our upcoming budget submissions will include funding for 
these upgrades. For example, the processor on the Exoatmospheric Kill 
Vehicle (EKV) will be upgraded to avoid obsolescence. This upgrade will 
be ready to be included in Ground Based Interceptors that are scheduled 
for fielding in the 2006-2007 timeframe. We are also planning upgrades 
to the GMD Fire Control (GFC) system as additional sensors are fielded. 
We have several programs to develop software upgrades to provide more 
advanced discrimination capability, and our testing will become 
increasingly more challenging to validate our progress in this area.
    Question. Once this program is fully fielded in Alaska and at 
Vanderburg Air Force Base over the next several years, how will you use 
the concepts of spiral development and block upgrades to improve the 
program five years from now?
    Answer. The program for spiral upgrades to the GMD components of 
the Initial Defensive Capability include an enhanced EKV (an upgrade to 
the processor), additional GMD Fire Control capability as a result of 
additional sensor capability such as the Sea-Based X-Band Radar (SBX), 
a program to mitigate potential countermeasures, multi-sensor fusion 
improvements, and advanced discrimination capabilities. All of these 
efforts are currently programmed within the FYDP.
                         airborne laser program
    Question. General Kadish, the airborne laser program was 
restructured earlier this year. Please explain some of the progress 
that has been made on this program and some of the remaining 
technological challenges?
    Answer. The Airborne Laser (ABL) program has made significant 
technical progress to date. We have successfully modified and conducted 
initial flight-testing of the Boeing 747-400F which will accommodate 
the lasers and optical control systems. We have completed the 
manufacturing, optical coating, and end-to-end testing of the beam 
control system and have begun integration of this system into the 
aircraft. The six-module high power laser has been fully installed in 
the System Integration Laboratory (SIL) at Edwards AFB and is currently 
undergoing initial testing. Finally, we have successfully demonstrated 
our capability to safely mix and handle the chemical laser fuel and we 
are making steady progress towards the first firing of the high power 
laser.
    The program was restructured to improve the focus on two near term 
efforts that will give us a better indication of the ABL's viability: 
(1) first flight of the beam control system during late 4th qtr CY 2004 
and (2) first light of the six-module high power laser in the Systems 
Integration Laboratory (SIL), during December 2004.
    Apart from these two milestones, there are a few other remaining 
technological objectives for the ABL program, to include integration of 
the turret ball on the front of the aircraft, integration of the target 
acquisition/tracking lasers onboard, and finally demonstration of the 
entire system with the shoot down of a ballistic missile. These 
technological objectives are significant, but at present we do not 
foresee any showstoppers.
    Question. I note that the 2005 budget reflects this restructuring. 
Are you concerned about losing momentum in the program and that we have 
a clear way ahead on directed energy programs?
    Answer. It is true that the technical challenges we are working to 
resolve have delayed fielding the first ABL aircraft and that the 
restructure has delayed acquisition of the second aircraft. However, we 
will maintain program momentum by resolving the pacing technical 
challenges and achieving laser ``first light.'' The record of technical 
achievement by ABL is cause for confidence that we will solve these 
challenges. Only decreased funding could cause a loss of momentum at 
this time. Funding stability will be critical for resolving the 
remaining technical challenges and moving forward with fielding this 
capability.
                 fort greely missile defense facilities
    Question. General Kadish, could you explain the importance of the 
2005 budget request to the ground-based midcourse system? What would be 
the consequences to the Fort Greely program and the overall system 
effectiveness if this funding is not provided?
    Answer. Fiscal year 2005 funding is essential to continue 
development of the Ground-based Midcourse Defense (GMD) capability and 
to put the Ballistic Missile Defense System on alert. Decreased funding 
would impact development and procurement of hardware necessary for the 
GMD element of the Ballistic Missile Defense System, including 
procurement of additional ground-based interceptors (GBIs), the Sea-
Based X-Band radar (SBX), and upgrades to existing Early Warning 
Radars. Testing of new systems would be impacted. A funding decrease 
could cause a break in production and cause distress in the industrial 
base, potentially forcing the smaller vendors out of business. The time 
and cost to develop and qualify a new vendor base would be prohibitive.
    Decreased fiscal year 2005 funds would also impact our ability to 
sustain the Initial Defensive Capability. Included in the fiscal year 
2005 budget is funding for the Sustainment Development Program. The 
Sustainment Development Program pays for spares and technical support 
from the GMD prime contractor. Without this effort the existing GMD 
hardware cannot be maintained.
    Question. Please provide us a status report on how the construction 
at Fort Greely is proceeding?
    Answer. The following is a look at some of the wide variety of GMD 
facilities at Fort Greely that will support IDO, and their status for 
alert.
  --Six Fort Greely silos complete;
  --Alaska fiber optic ring complete;
  --Battalion Fire Control Node at Fort Greely: tested satisfactorily;
  --SATCOM links (nine total): tested satisfactorily;
  --Fort Greely In-Flight Interceptor Communications System (IFICS) 
        Data Terminal (IDT) complete and tested satisfactorily;
  --Fort Greely buildings: 10 complete; five on schedule; one behind 
        schedule (no impact).
    Question. Are there any significant issues as you deploy an initial 
operating missile defense capability later this year?
    Answer. There are no significant issues, but challenges remain. Our 
schedule to begin Initial Defensive Operations is aggressive and 
depends on many interdependent activities proceeding as expected. We 
are attempting to remain as agile as possible to account for unforeseen 
events. Additionally, the outcome our flight tests this year will be 
important. Overall, however, we expect to remain on schedule.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
    Question. General, I understand Aegis destroyers and cruisers will 
play a key role in the missile defense of the United States and our 
allies. Could you summarize the capability to be fielded by the Navy 
and tell us how you coordinate operations with the Navy and help offset 
their costs?
    Answer. The Aegis BMD element of the Ballistic Missile Defense 
System (BMDS) builds upon the mature, operationally-proven, globally 
deployed Aegis Combat System (ACS) to detect, track, intercept, and 
destroy Short Range Ballistic Missiles (SRBMs) to Intermediate Range 
Ballistic Missiles (IRBMs) in the midcourse (spanning ascent to early 
terminal) phase of flight while deployed in defense of the nation, 
deployed U.S. forces, friends, and allies.
    The heart of the Aegis BMD system is the Aegis Weapon System (AWS), 
including the AN/SPY-1 radar. The AWS detects, tracks, and identifies 
the ballistic missile target, and guides the SM-3 close enough to the 
target for the SM-3's Kinetic Warhead (KW) to close for intercept. The 
KW tracks the target with its Long Wavelength Infrared seeker and uses 
its propulsion system to divert to complete a hit-to-kill intercept. A 
total of three Aegis Cruisers (CGs) and 15 Aegis Destroyers (DDGs) will 
be Aegis BMD capable by the end of CY 2006.
    Aegis BMD will evolve through spirally developed block improvements 
as part of the MDA's block upgrade strategy. Block 2004 will be a 
spiral development, with the Initial Defensive Capability (IDC) (Aegis 
BMD 3.0E) completed, verified, and tested for Initial Defensive 
Operations (IDO). This capability will provide long-range surveillance, 
detection, and tracking of long range ballistic missiles in support of 
the BMDS. It will be fielded initially on two Aegis destroyers by 
September 30, 2004, quickly expanding to four DDGs before the end of 
calendar year 2004.
    The test bed version of the engagement capability (Aegis BMD 3.0 
plus SM-3 Block I) will be available for ship installation by December 
2004 and flight tested in early CY 2005. This capability is not 
intended for operational employment, but could be available for 
emergency use. There will be five SM-3 Block I missiles available by 
December 2004 and BMD 3.0 will be installed on two Cruisers in CY 2005.
    The final Block 2004 capability (Aegis BMD 3.1 plus SM-3 Block IA) 
will be delivered in December 2005 and certified by April 2006 for 
Fleet use against SRBMs and MRBMs, as well as contingency to provide 
Long Range Surveillance and Track (LRS&T) data to the BMDS. This 
configuration also includes the integration of basic Anti-Air Warfare 
(AAW) self-defense that will be installed in three Cruisers and up to 
15 Destroyers by the end of Block 2006. Installation schedules are 
based on ship deployment and maintenance schedules
    The Aegis BMD element builds upon the existing Aegis Weapon System 
(AWS) and STANDARD Missile infrastructure already deployed in Aegis 
TICONDEROGA class Cruisers, ARLEIGH BURKE class Destroyers, and Japan's 
KONGO class Destroyers.
    MDA is funding the development, integration, and testing of Aegis 
BMD upgrades to the existing STANDARD Missile, AWS, and command and 
control systems. MDA funding also covers the cost of BMD specific ship 
equipment sets, initial installation, missile purchases, establishing 
integrated logistics support (ILS), including initial training and 
spare parts, and developmental flight tests. MDA continues technical 
and logistic support until six months after the delivery of the block, 
when sustaining funding responsibility transfers to the Navy, and MDA 
pursues the next block upgrade. The Navy pays for ship operations and 
support (O&S) costs and Manpower and Personnel (MPN) costs for the 
crews throughout development and operational phases.
    For developmental tests, Aegis BMD coordinates closely with 
Commander, Third Fleet (C3F) to assign ships to test events, 
particularly USS LAKE ERIE, the assigned BMDS test ship. C3F also 
provides Destroyers to participate in test events, as appropriate. MDA 
funds marginal costs for these test events, such as fuel.
    Operational employment of the ships in support of BMDS will be 
under the Commander, Pacific Fleet (CPF), in coordination with NORTHCOM 
and STRATCOM. CPF will fund the marginal costs for ship operations. 
This approach fully leverages the U.S. investment in the Aegis fleet to 
provide an affordable missile defense capability.
    Question. General, I see that you have requested funding for boost 
phase development for the Kinetic Energy Interceptor. With the next 
generation Navy Cruiser, the CG(X), in the early planning stages, I am 
interested to know what discussions you are having with the Navy for 
sea-basing options for this interceptor and what would be the fielding 
timeframe?
    Answer. The KEI program office commissioned the Navy to conduct a 
CONOPS study to determine what interim platforms are feasible for the 
KEI mission until the CG(X) is fielded. The results of the study may be 
available as soon as September 2004. The projected fielding timeframe 
for sea-based KEI is in Block 2012 on an interim platform. The Navy 
CG(X) will be ready for fielding around 2020. The Navy can provide more 
specific dates for the CG(X) fielding.
    Question. General, I understand that there is an industry proposal, 
supported by our Japanese allies, to develop a sea-based interceptor 
that would fit in existing Navy missile launchers. Given the 
Administration's desire to involve the international community in 
missile defense and the fact that this proposed missile would not 
involve modifying existing ships, what is your opinion of spiral 
developing the SM-3 missile to a 21 inch missile instead of using the 
36 inch Kinetic Energy Interceptor?
    Answer. The Missile Defense Agency (MDA) has initiated a 
comprehensive Joint Analysis with Japan to evaluate future ballistic 
missile defense options for the defense of Japan and the United States. 
This analysis will allow Japan and the United States to make informed 
decisions regarding the development, production, deployment and 
enhancement of interoperable missile defenses. Enhancements to the SM-3 
will be addressed as part of the Joint Analysis.
    Question. General Kadish, in your statement you indicate you have 
experienced some difficulties with the Airborne Laser as that system 
has moved from the drawing board to actual flyable hardware. For 
example, I have been informed the aircraft is somewhat heavier than had 
been hoped and that the testing of the system has faced numerous 
delays. Would you characterize the challenges you've encountered as 
something expected for a program of this sort or are they what some 
might call ``showstoppers?''
    Answer. The challenges we have faced to date are typical for a 
program of this nature, which is the first of its kind. However, we 
have encountered nothing to date, which we would categorize as a 
showstopper. In fact, you could say we have achieved some unique 
successes since beginning the development of the ABL to include work in 
the areas of chemical and solid-state lasers, precision optics, and 
even aircraft design and modification. Given the advanced nature of the 
technology we are using to produce the ABL, we have really made 
tremendous progress. Furthermore, I am confident that we can complete 
the remaining technical requirements in order to successfully 
demonstrate this system.
    Question. General Kadish, I understand the Terminal High Altitude 
Air Defense (THAAD) radar was completed ahead of schedule and delivered 
last month and the THAAD program is scheduled to have its first flight 
test late this year. However, I am told that it will not achieve 
operational capability for several years. General, how would you assess 
the program's risk at this point, and is there anything that can be 
done to move this program along a little faster?
    Answer. The overall program risk assessment for the THAAD program 
is moderate. For the first flight (December 2004), the missile 
component has moderate technical and schedule risks. For the first 
intercept (June 2005), the launcher component has moderate schedule 
risk. All risks will be retired by ground testing prior to first flight 
and intercept, with the exception of schedule risk for a production 
booster motor and thrust vector assembly source.
    The recent incidents at the boost motor supplier (Pratt & Whitney) 
have put enormous pressure on the fiscal year 2004/fiscal year 2005 
program. The additional cost to recover from these incidents and bring 
on an alternate boost motor supplier is projected to be $120 million 
through fiscal year 2007. This has resulted in a significant deferral 
of activities out of fiscal year 2004 into later years, with an 
immediate impact of $95 million in fiscal year 2005 ($45 million to 
recover the necessary deferred activities and $50 million for the boost 
motor supplier alternate source issues).
    The current THAAD program includes the first Fire Unit for which 
fabrication will begin in fiscal year 2007, with delivery for 
operational assessments and potential deployment scheduled for mid-
fiscal year 2009. The Fire Unit cost is $483 million, with a current 
funding plan for Fielding based on $360 million in fiscal year 2007 and 
$123 million in fiscal year 2008. There are three options for 
accelerating the availability of this equipment.
    Option 1: To accelerate the Fire Unit by six months, the current 
approved $483 million for THAAD fielding would be required to start in 
fiscal year 2006 (vice fiscal year 2007). This includes $75 million in 
fiscal year 2006 for radar long lead items, with the additional $309 
million is fiscal year 2007, and $99 million in fiscal year 2008. This 
is a low risk option that moves the Fire Unit availability from mid-
fiscal year 2009 to late-fiscal year 2008.
    Option 2: To accelerate the Fire Unit by 12 months, the current 
approved $483 million for THAAD fielding would be required to start in 
fiscal year 2006 (vice fiscal year 2007). This option would move the 
$360 million from fiscal year 2007 to fiscal year 2006 and the $123 
million in fiscal year 2008 to fiscal year 2007. This is a low risk 
option that moves the Fire Unit availability from fiscal year 2009 to 
fiscal year 2008.
    Option 3: To accelerate the Fire Unit by 18 months, the current 
approved $483 million for THAAD fielding would be required to start in 
fiscal year 2005 (vice fiscal year 2007). This includes $75 million for 
radar long lead items, with the additional $360 million in fiscal year 
2006, and $48 million in fiscal year 2007. This is a more aggressive 
option that increases risk and requires an early decision on the 
purchase of hardware prior to an intercept flight test. It moves the 
Fire Unit availability from fiscal year 2009 to fiscal year 2007.
                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye
    Question. General Kadish, the Missile Defense Agency plans include 
funding for 10 ground-based interceptors at a third missile site 
overseas. What is the benefit of having an additional site overseas, 
and what are the candidate countries that you are looking at to house 
this site? Do you expect that there will be international contributions 
for a third ground-based intercept site, or will the United States have 
to assume the entire bill?
    Answer. We have included funding in fiscal year 2005 for long-lead 
items for an additional 10 GBIs that could be deployed at a potential 
third site, or at Fort Greely. No determination has been made as to the 
actual location of this third site. In our analysis we have examined 
potential third sites in the United States as well as overseas. The 
benefit of an overseas site is that it provides additional protection 
to the United States as well as protection to our allies and friends. 
Several overseas regions, including Europe, are potential candidates 
for a GBI site from a performance perspective. There are, however, many 
other factors that would determine whether a particular site is viable. 
If a determination was made that an overseas site is desirable, in 
addition to the many domestic considerations, we would expect the 
nature of non-U.S. contributions to factor into a final decision.
    Question. General Kadish, your budget request includes nearly $80 
million for space-based weapons-related research and development. $68 
million of the request is for launching a short-range kill vehicle into 
space for the Near-Field Infrared (N-FIRE) program. What is the goal 
for the ``N-Fire'' program, and could you use alternatives to a kill 
vehicle in space to collect data for this program?
    Answer. The Near Field Infrared Experiment (NFIRE) is a major risk 
reduction project for the Kinetic Energy Interceptor (KEI) program. The 
primary NFIRE objectives are: Collection of near field rocket plume and 
rocket hardbody IR data for model validation and algorithm 
verification; and near term KEI kill vehicle development and testing 
(hardware and software).
    Yes there are other methods to collect IR data however NFIRE is the 
only method that will provide near field IR data.
    Aircraft observations using a variety of sensors allow us to 
collect IR data at aircraft altitude and speed, but do not provide the 
near field resolution we need because the distance to the target is 
typically 150-250Km. Range safety prohibits aircraft from getting 
closer than that.
    Sub orbital tests, simultaneously launching a one use sensor and a 
target, require both rockets to fly to the same point time in space. 
This approach is a one shot opportunity with a specific sensor.
    An orbital based test, like NFIRE, uses the highly predictable 
nature of a satellite to reduce the risk for both objects to arrive at 
the same point time in space. An orbital platform allows us to have 
multiple opportunities to collect near field data in various wavebands 
at a variety of engagement ranges and geometries.
    Question. I understand that the reason the kill vehicle portion of 
the Near-Field Infrared Experiment is not considered a space weapon is 
that it is restricted from moving forward or backward. How difficult is 
it to put this forward-backward movement back into the kill vehicle?
    Answer. Including an axial stage (forward-backward movement) was 
never part of the NFIRE kill vehicle. Consequently, to add an axial 
stage to the current NFIRE kill vehicle would require a redesign of all 
portions of the experiment (satellite, KV, launch vehicle, ground 
support). This redesign would be difficult, costly, negatively affect 
the schedule, and prevent our delivery of near field rocket plume and 
rocket hardbody IR data in time to reduce the risk to Block 10 KEI kill 
vehicle development.
    Adding an axial stage to the kill vehicle does not contribute to 
the primary NFIRE objectives: Collection of near field rocket plume and 
rocket hardbody IR data for model validation and algorithm 
verification; and near term KEI kill vehicle development and testing 
(hardware and software).

                          SUBCOMMITTEE RECESS

    Senator Stevens. But continuing on, we hope that you will 
feel free to keep in touch with us and be a Monday morning 
quarterback for us, and we invite you to return to our States 
and be treated as you should be, as one of our favorite people 
in military uniform, whether you're wearing the uniform or not. 
Thank you very much and thank you for continuing on under 
difficult circumstances, General. But since this is your last 
meeting here, let me again repeat what I said to you. We 
congratulate you and thank you on behalf of the people of the 
United States for your commitment to the system, and your 
willingness to spend the hours you have spent, long days away 
from your family, to make certain that it is the best system we 
can devise today. And I hope it will continue to improve with 
your guidance. Thank you very much, General.
    General Kadish. Thank you, Mr. Chairman.
    [Whereupon, at 10:55 a.m., Wednesday, April 21, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
April 28.]

</pre></body></html>
